                                                                Issue Date
                                                                   April 19, 2007
                                                                Audit Report Number
                                                                   2007-PH-1006




TO:        Encarnacion Loukatos, Director, Philadelphia Multifamily Hub, 3AHMLA




FROM:



SUBJECT:   Elders Place II, Incorporated, Philadelphia, Pennsylvania, Did Not Properly
            Administer HUD Funds in Accordance with HUD Requirements


                                 HIGHLIGHTS

 What We Audited and Why

           We audited Elders Place II, Incorporated (Elders Place II, Inc.), at your request,
           based upon your concern that the Greater Germantown Housing Development
           Corporation (the project’s sponsor), a nonprofit community development
           corporation, may have misappropriated U.S. Department of Housing and Urban
           Development (HUD) Section 202 funding provided for Elders Place II (project).
           Our objective was to determine whether Elders Place II, Inc., administered HUD
           funds in accordance with HUD requirements.

 What We Found


           Elders Place II, Inc., did not administer HUD funds in accordance with HUD
           requirements. It did not maintain complete and accurate books and records to
           support the receipt and disbursement of HUD funds, deposit all HUD funds
           intended for the construction of the project into the project’s construction account,
           maintain adequate control over the disbursement of project funds, establish an
           escrow account to cover additional construction costs, and submit an acceptable
           cost certification to bring the project to final closing. This noncompliance
           occurred because Elders Place II, Inc., lacked standard operating procedures and
           sufficient oversight from a functioning board of directors. As a result, it made
           ineligible disbursements of $87,866, unsupported disbursements totaling
           $605,166, and drastically delayed the process of bringing the project to final
           closing.

What We Recommend


           We recommend that HUD direct Elders Place II, Inc., to repay the project $87,866
           from nonfederal funds for the ineligible costs identified by the audit.
           Additionally, we recommend that HUD direct Elders Place II, Inc., to provide
           documentation to support the $605,166 in questioned costs or reimburse the
           project for any unsupported costs from nonfederal funds. We further recommend
           that HUD direct Elders Place II, Inc., to deposit $95,382 into an escrow account to
           cover the additional construction costs and to develop and implement written
           procedures to ensure that disbursements of HUD funds are eligible and consistent
           with applicable HUD and federal regulations, thereby preventing $45,843 from
           being disbursed improperly over the next year.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We discussed the report with Elders Place II, Inc., during the audit and at an exit
           conference on April 10, 2007. Elders Place II, Inc., provided written comments to
           our draft report on April 13, 2007. Elders Place II, Inc., agreed with the audit
           report. The complete text of the auditee’s response, along with our evaluation of
           that response, can be found in appendix B of this report.




                                             2
                            TABLE OF CONTENTS

Background and Objectives                                                        4

Results of Audit
      Finding: Elders Place II, Inc., Did Not Properly Administer HUD Funds in   6
      Accordance with HUD Requirements

Scope and Methodology                                                            12

Internal Controls                                                                14

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use             16
   B. Auditee Comments and OIG’s Evaluation                                      17
   C. Schedule of Project Funding Sources                                        20




                                            3
                         BACKGROUND AND OBJECTIVES

The Section 202 Supportive Housing for the Elderly program serves very low-income senior
citizens that have few housing options. These projects provide very low-income elderly with
options that allow them to live independently but in an environment that provides support activities
such as cleaning, cooking, transportation, etc.

Under the provisions of Section 202 of the Housing Act of 1959, the U.S. Department of Housing
and Urban Development (HUD) makes and disburses a capital advance pursuant to a mortgage to
construct an elderly housing project. The mortgage is used as security for the capital advance and
would be payable in full in the event of default by the owner/mortgagor. 1 The capital advance shall
bear no interest and is not required to be repaid so long as the housing remains available to eligible
very low-income households for a period of 40 years and in accordance with the Section 202
program. The capital advance is subject to compliance with a regulatory agreement, a use
agreement, and a firm commitment for capital advance financing agreement. The regulatory
agreement and owner certificate are executed by an owner at the time a mortgage is executed
between the owner and HUD. The owner also executes a capital advance agreement at the time the
mortgage is executed. This agreement contains provisions that funds in the construction account
shall be expended only for the purposes for which capital advance funds were requested and
approved. The same requirements are applicable to any escrow deposit agreements required by
HUD.

After construction of the project is completed, HUD inspects the project and makes a determination
that the project is substantially completed and ready for tenant occupancy. HUD will also advise
the owner that within 90 days of substantial completion, the owner is responsible for submitting an
audited cost certification report to support the actual cost of the project and provide information
concerning the project funding sources. After receipt of the audited cost certification, HUD
determines the maximum mortgage amount and establishes a mutually agreeable final closing date.
HUD will also provide rental assistance to the project by executing a rental assistance contract. The
rental assistance is provided to eligible families of the project.

Elders Place II (project) is a 40-unit housing project funded under the Section 202 program and is
located at 76-88 Collom Street, Philadelphia, Pennsylvania. Project financing came from several
sources. 2 The owner of the project is Elders Place II, Incorporated (Elders Place II, Inc.), a
nonprofit corporation formed by the sponsoring organization, Greater Germantown Housing
Development Corporation (Corporation). Germantown Settlement is the parent organization of the
Corporation. Emanuel V. Freeman is the president of the Corporation and Germantown
Settlement. Mr. Freeman was also identified as the chairman of the board of directors of Elders
Place II, Inc. The Corporation was the management agent for the project until July 2006 when
Multifamily Management of Philadelphia, LLC, became the management agent for the project.

1
  Elders Place II, Inc., is the owner/mortgagor that executed a mortgage with HUD. The mortgage is between Elders
Place II, Inc., and HUD. No banking institution is involved with this mortgage. HUD provides the capital advance
after it executes a mortgage instrument securing the advance, which acts more like a security deed than a mortgage
since HUD is giving the owner/mortgagor funds.
2
  See appendix C for details.


                                                        4
Construction of the project was completed in June 2004. As of March 2007, Elders Place II, Inc.,
had not submitted an acceptable audited cost certification to HUD.

Our objective was to determine whether Elders Place II, Inc., administered HUD funds in
accordance with HUD requirements.




                                                5
                                     RESULTS OF AUDIT

Finding: Elders Place II, Inc., Did Not Properly Administer HUD Funds
in Accordance with HUD Requirements
Elders Place II, Inc., did not maintain complete and accurate books and records to support the
receipt and disbursement of HUD funds, deposit all HUD funds intended for the construction of
the project into the project’s construction account, maintain adequate control over the
disbursement of project funds, establish an escrow account to cover additional construction costs,
and submit an acceptable cost certification to bring the project to final closing. This
noncompliance occurred because Elders Place II, Inc., lacked standard operating procedures and
sufficient oversight from a functioning board of directors. As a result, it made ineligible
disbursements totaling $87,866 and unsupported disbursements totaling $605,166, 3 and it lacked
the records needed to prepare an acceptable cost certification to account for the project’s funding;
drastically delaying the process of bringing the project to final closing.


    Elders Place II, Inc., Could Not
    Support $97,639 in
    Disbursements of Construction
    Funds


                 Elders Place II, Inc., could not provide adequate support for some disbursements
                 of construction funds provided by HUD under the capital advance. It did not
                 maintain a cash receipts or cash disbursements ledger; therefore, we used bank
                 statements and canceled checks for our review. The capital advance agreement4
                 states that funds in the construction account shall be expended only for the purposes
                 for which capital advance funds were requested and approved. The capital advance
                 program agreement and certification 5 requires Elders Place II, Inc., to maintain
                 and keep adequate records of all disbursements of construction funds for the
                 project. We reviewed more than $3.3 million in disbursements that Elders Place
                 II, Inc., made using capital advance funds provided by HUD and determined that
                 $97,639 of those disbursements was unsupported. For example, the unsupported
                 costs included $78,413 paid to the Corporation for development fees ($62,287),
                 marketing ($4,028), and furniture ($12,098). Elders Place II, Inc., provided no
                 documentation to support these disbursements. It made other unsupported
                 disbursements, such as $7,500 to the local water company, $3,750 to an


3
  $605,166 = $97,639 (unsupported disbursements of capital advance funds) + $405,955 (unsupported disbursements
of funds provided by the Philadelphia Redevelopment Authority) + $101,572 (unsupported disbursements of
operating funds).
4
  Capital Advance Agreement (form HUD-90167-CA), section 4(d).
5
  Capital Advance Program Agreement & Certification (form HUD-93566-CA), sections (1) and (5).


                                                      6
                accountant, and another $7,976 to various entities, without maintaining adequate
                documentation to support the disbursements.

    Elders Place II, Inc., Could Not
    Support Disbursements of
    $405,955 in Other HUD Funds
    Dedicated to the Project


                Elders Place II, Inc., could not provide adequate support for $405,955 in
                disbursements of HUD funds provided for the project by the Redevelopment
                Authority of the City of Philadelphia (Redevelopment Authority). The
                Redevelopment Authority provided Elders Place II, Inc., $600,000 for
                construction and permanent financing. The source of the funds provided by the
                Redevelopment Authority was HOME Investment Partnerships (HOME) funds
                provided to the City of Philadelphia acting through its Office of Housing and
                Community Development. As mentioned above, Elders Place II, Inc., did not
                maintain a cash receipts or cash disbursements ledger; therefore, we used bank
                statements and canceled checks for our review. As of December 2006, the
                Redevelopment Authority had disbursed $542,345 of the $600,000 to Elders Place
                II, Inc. However, Elders Place II, Inc., did not deposit $500,305 of the $542,345
                it received from the Redevelopment Authority into the project construction
                account as required. Instead, the funds were deposited into a bank account owned
                by the Corporation. The capital advance agreement states that funds required for
                the completion of the project over and above the amount of the capital advance
                shall be deposited into the construction account and, where subordinate financing
                was provided, the funds shall be expended only for the purposes for which such
                financing was provided. 6 The improper deposit of the funds notwithstanding, we
                requested documentation to support the expenditures of these funds. However,
                Elders Place II, Inc., provided no documentation, including copies of the
                cancelled checks, to support the $405,955 in disbursements questioned.

    Elders Place II, Inc., Made
    $189,438 in Ineligible and
    Unsupported Disbursements of
    Project Operating Funds


                Elders Place II, Inc., did not adequately monitor disbursements made from its
                project operating account to ensure that expenditures of HUD funds were
                consistent with the requirements of the regulatory agreement and HUD
                requirements. 7 We reviewed $204,084 of $287,021 (71 percent) that Elders Place
                II, Inc., disbursed from its operating account during the period September 2004 to

6
 Capital Advance Agreement (form HUD-90167-CA), sections 4(c) and (d).
7
 Capital Advance Program Regulatory Agreement (HUD-92466-CA), section 11(d) and (e); HUD Handbook
4370.2, REV 1, CHG-1, Financial Operations and Accounting Procedures for Insured, paragraph 2-6 E.


                                                   7
                 July 2006 and questioned $189,438 of those costs. Elders Place II, Inc., made
                 ineligible disbursements of $87,866 and $101,572 in unsupported disbursements.
                 The ineligible disbursements included $85,500 paid or transferred to the
                 Corporation or Germantown Settlement. 8 The disbursements and transfers related
                 to the $85,500 were recorded on the project’s books as increases to its accounts
                 receivable balance, indicating that the funds were owed to Elders Place II, Inc., by
                 the Corporation and Germantown Settlement. Elders Place II, Inc., also disbursed
                 $1,616 to pay for telephone service and maintenance supplies that were purchased
                 by and shipped to other projects related to the Corporation and $750 for a cost
                 certification that should have been paid from the project’s construction funds.

                 In addition, Elders Place II, Inc., made unsupported disbursements totaling
                 $101,572. Among the unsupported costs were $49,712 in payments made to the
                 Corporation and Germantown Settlement without supporting documentation of
                 any kind and payments of $32,437 to the local gas and water utility companies
                 that were not adequately supported. Some of the utility expenses may have been
                 related to the construction of the project and should have been paid by the general
                 contractor. Elders Place II, Inc., also disbursed $12,815 for insurance and $6,608
                 for miscellaneous items, such as audit services, heating and plumbing services,
                 and telephone service, without adequate supporting documentation to demonstrate
                 that these costs were related to the project.

    Elders Place II, Inc., Did Not
    Establish a Required Escrow
    Account


                 Contrary to HUD requirements, 9 Elders Place II, Inc., did not establish an escrow
                 account to cover additional construction costs caused by project change orders.
                 During project construction, HUD approved change orders and required the
                 owner to establish and fund an escrow account to cover costs for the approved
                 change orders. We found no evidence that Elders Place II, Inc., established the
                 escrow account as required. The capital advance agreement required Elders Place
                 II, Inc., to deposit into the construction account any additional funds necessary to
                 complete the construction of the project. By signing the owner’s certificate,
                 Elders Place II, Inc., agreed that there would not be outstanding any unpaid
                 obligations contracted in connection with the construction of the project.

                 Elders Place II, Inc., needs to provide at least $95,382 10 to pay off the general
                 contractor and bring the project to final closing. The general contractor for the
                 project indicated that it is owed $185,133 for construction costs, and in September

8
  Germantown Settlement is the parent organization of the Corporation.
9
  Owner’s Certificate (form HUD-92433-CA), section 3; Capital Advance Agreement (form HUD-90167-CA),
sections 4(c) and (d).
10
   $185,133 (owed to the contractor) - $32,096 (remaining HUD funds) - $57,655 (remaining Redevelopment
Authority funds) = $95,382.


                                                     8
                   2006, the general contractor filed a civil complaint against Elders Place II, Inc.,
                   for nonpayment of the $185,133. Elders Place II, Inc., disputed the general
                   contractor’s contention. It stated that it requested that the general contractor
                   perform some work tasks related to warranties and the general contractor would
                   not come out to do the repairs. According to HUD’s records, $32,096 of the
                   initial construction loan remains to be disbursed, and the Redevelopment
                   Authority had $57,655 remaining to be disbursed to the project. Therefore, Elders
                   Place II, Inc., needs to establish an escrow account as required and deposit at least
                   $95,382 to pay off the general contractor and bring the project to final closing.

     Elders Place II, Inc., Did Not
     Submit an Acceptable Cost
     Certification as Required


                   Contrary to HUD requirements 11 , Elders Place II, Inc., did not submit an
                   acceptable cost certification to HUD as required, although the construction of the
                   project was completed in June 2004. Elders Place II, Inc.’s, noncompliance has
                   drastically delayed the process of bringing the project to final closing. In February
                   2005, HUD highlighted the Corporation and Elders Place II, Inc., for their failure
                   to provide the cost certification. Highlighting the entities in HUD’s management
                   system adversely affects the entities’ future participation in HUD programs.
                   Though overdue, Elders Place II, Inc., submitted a cost certification to HUD in
                   March 2005, but HUD deemed the cost certification unacceptable. HUD determined
                   that several sections of the cost certification were not completed and the form was
                   not signed and dated. HUD informed Elders Place II, Inc., of its findings later that
                   month and followed-up through numerous telephone conversations, face-to-face
                   meetings, and in written correspondence. Despite HUD’s efforts, it has not
                   submitted an acceptable cost certification as of March 2007. HUD regulations
                   require Elders Place II, Inc., to submit an acceptable cost certification to support the
                   actual cost of the project and provide information concerning the project funding
                   sources and bring the project to final closing within 90 calendar days of substantial
                   completion of the project. Elders Place II, Inc., needs to submit an acceptable cost
                   certification to HUD without delay to account for the project’s funding and bring the
                   project to final closing.

     Elders Place II, Inc., Did Not
     Have Adequate Controls in
     Place


                   These conditions occurred because Elders Place II, Inc., did not establish and
                   implement adequate controls to ensure that it administered HUD funds in
                   accordance with applicable HUD requirements. During the audit, we requested
                   copies of any written policies and procedures related to the construction and
11
     HUD Handbook 4571.4, section 4-15D.


                                                      9
                    operation of Elders Place II, Inc., but found that there were none. The articles of
                    incorporation for Elders Place II, Inc., require that a board of directors consisting
                    of at least 7 but no more than 15 individuals be selected to govern the project.
                    However, there was no evidence that Elders Place II, Inc., had a functioning board
                    of directors actively overseeing the construction and operation of the project. By
                    implementing our recommendations, Elders Place II, Inc., can avoid potential
                    adverse actions such as takeover of the property or foreclosure on the mortgage
                    by HUD. Further, by improving controls over the project, such as ensuring that
                    disbursements are made for costs that are eligible and supported, maintaining
                    appropriate books and records, and providing adequate oversight of the project’s
                    operations, Elders Place II, Inc., can put $45,843 12 to better use over a one-year
                    period.

     Recommendations

                    We recommend that the director, Philadelphia Multifamily Hub direct Elders Place
                    II, Inc., to

                    1A.      Repay the project $87,866 from nonfederal funds for the ineligible costs
                             identified by the audit.

                    1B.      Provide documentation to support the $605,166 in questioned costs
                             identifed by the audit and, if the costs cannot be supported, reimburse the
                             project for any unsupported costs from nonfederal funds.

                    1C.      Develop and implement written procedures to ensure that disbursements of
                             HUD funds are eligible and consistent with applicable HUD and federal
                             regulations, and, thereby, put $45,843 to better use over a one-year period.

                    1D.      Establish an escrow account, and deposit $95,382, or the amount determined
                             to be due to the contractor, from non-project funds into the account.

                    1E.      Take appropriate action to resolve the amount due to the general contractor.

                    1F.      Submit an acceptable cost certification to account for the project’s funding.

                    1G.      Bring the project to final closing.

                    1H.      Establish a functioning board of directors to provide adequate oversight of
                             project operations and controls to ensure that the board fulfills its
                             responsibilities and documents its actions.

                    1I.      Maintain appropriate books and records as required by applicable
                             agreements and HUD regulations.
12
     $87,866 divided by 23 months (period audited) multiplied by 12 (to annualize) = $45,843 for one year.


                                                          10
We recommend that the director, Philadelphia Multifamily Hub

1J.   If Elders Place II, Inc., does not bring the project to final closing, then pursue
      all applicable sanctions available under the regulatory agreement including
      issuing a notice of default, declaring a default, and pursuing such actions as
      taking possession of the project, foreclosing on the mortgage, or requiring a
      transfer of the physical assets to a HUD-approved private nonprofit
      corporation.




                                   11
                         SCOPE AND METHODOLOGY

We performed the audit at Elders Place II, Inc., in Philadelphia, Pennsylvania, from August
through December 2006. The audit was performed in accordance with generally accepted
government auditing standards and included tests of internal controls that we considered
necessary. During the audit, we assessed the reliability of computer-processed data relevant to
our audit by comparing it to hard-copy information. We found the computer-processed data
were sufficiently reliable to meet our audit objectives.

The audit covered transactions representative of operations current at the time of the audit and
included the period September 2001 through July 2006. We expanded the scope of the audit as
necessary. We discussed operations with staff from Elders Place II, Inc., and the Corporation
and key officials from HUD’s Philadelphia Multifamily Housing Hub.

To determine whether Elders Place II, Inc., administered HUD funds in accordance with HUD
requirements, we reviewed

   •   Applicable HUD regulations.

   •   The internal control structure for Elders Place II, Inc.

   •   The 2004 and 2005 audit reports from the independent auditors for Elders Place II, Inc.,
       and cost certification reports Elders Place II, Inc., submitted to HUD. This included
       reviewing the independent auditor’s workpapers.

   •   The project rental assistance contract and mortgagor requisitions for Section 202 funds.

   •   All documentation provided by Elders Place II, Inc., and the Corporation related to our
       audit objective, including the capital advance agreement, capital advance program
       agreements and certification, mortgage, regulatory agreement, construction contract,
       project change orders, related correspondence, bank statements, cancelled checks, and
       documentation supporting disbursements.

   •   $204,084 of the $287,021 (71 percent) Elders Place II, Inc., disbursed from its operating
       account from September 2004 to July 2006. We nonstatistically selected disbursements
       for review based upon payee names and the type of cost being incurred. Based on our
       work, we estimate that Elders Place II, Inc., will put $45,843 to better use over the next
       year by implementing our recommendations and ceasing to make ineligible
       disbursements from its operating account. The calculation for the $45,843 is as follows:
       $87,866 (the ineligible costs identifed by the audit) divided by 23 months (the period
       audited) multiplied by 12 (to annualize) = $45,843 for one year.

   •   Correspondence related to the cost certification and the results of monitoring reviews
       conducted by the HUD Philadelphia Multifamily Hub.



                                                 12
•   Documentation provided by the general contractor concerning funds received.




                                          13
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


              We determined the following internal controls were relevant to our audit objectives:

              •   Policies, procedures, and other management controls implemented to ensure that
                  Elders Place II, Inc., administered HUD funds in accordance with the terms of its
                  agreements with HUD and HUD regulations.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.


 Significant Weaknesses


              Based on our review, we believe the following items are significant weaknesses:

              Elders Place II, Inc., did not

              •   Establish policies and procedures to ensure that it made disbursements of
                  project funds that were eligible, supported, and consistent with applicable HUD
                  requirements.




                                               14
•   Establish controls to ensure that the board of directors fulfills its
    responsibilities by providing adequate oversight of the project and its
    operations and documents its actions.

•   Establish polices and procedures to address contingencies and ensure that it
    brought the project to final closing within the required time frame.

•   Establish polices and procedures to ensure that it maintained its books and
    records as required.




                                 15
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

         Recommendation         Ineligible 1/        Unsupported 2/   Funds to be put
                number                                                to better use 3/
                       1A         $87,866
                       1B                               $605,166
                       1C                                                $45,843
                       1D         $95,382
                     Total       $183,248               $605,166         $45,843


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     polices or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. If the auditee implements our recommendations, it will
     cease making ineligible disbursements from its operating account. Once the auditee
     improves its controls, this will be a recurring benefit. Our estimate reflects only the
     initial year of this benefit.




                                                16
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1



Comment 1




                         17
18
                         OIG Evaluation of Auditee Comments

Comment 1   We provided the details of the ineligible and unsupported costs that we identified
            to the auditee during the audit. At the exit conference, we agreed to provide the
            details to the auditee again.




                                            19
Appendix C

          SCHEDULE OF PROJECT FUNDING SOURCES



      Fund source             Fund type         Amount of funds   Stated purpose for the
                                                provided to the    funding contribution
                                                   project
  HUD capital advance           HUD               $3,427,200        Project construction
                             Section 202
                              program
    Redevelopment               HUD                 $600,000      Project construction and
 Authority of the City of   HOME Program                            permanent financing
      Philadelphia
 Pennsylvania Housing         Non-HUD               $200,000      Project construction and
    Finance Agency                                                  permanent financing
  Philadelphia Health         Non-HUD               $125,000        Real estate purchase
     Management
      Corporation
 W.W. Smith Charitable        Non-HUD                $60,000        Project construction
          Trust
    Elders Place II,          Non-HUD                $10,000        Required minimum
      Incorporated                                                  capital investment
         Total                                    $4,422,200




                                           20
